          SENSITIVE BUT UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

              Ofﬁce of Inspector General





            Report of Inspection



 Broadcasting Board of
Governors Operations in
        Kenya
Report Number ISP-IB-08-07, January 2008




                            IMPORTANT NOTICE
This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED

                          SENSITIVE BUT UNCLASSIFIED




                                    TABLE OF CONTENTS


KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

VOICE OF AMERICA, EAST AFRICA BUREAU . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

       Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

       Facilities and Security. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

       Financial Management: . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

AFFILIATE ACTIVITY: OFFICE OF MARKETING AND PROGRAM PLACEMENT . . . . . . . . . . . 9

TRANSMISSION FACILITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

EMBASSY COOPERATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

PROGRAM IMPACT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

      The Need to Advertise . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

      The Need to Localize . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

      The Need for More Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

      The Need to Communicate Transmission Information . . . . . . . . . . . . . . . . 20

      The Need to Share Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31





                            SENSITIVE BUT UNCLASSIFIED

                       SENSITIVE BUT UNCLASSIFIED





                                KEY JUDGMENTS


     • 	 Nairobi is the hub of much of the Broadcasting Board of Governors
         (BBG’s) activity in East Africa. While individually well-run, the various
         BBG elements in Kenya do not communicate adequately among themselves.
         In Washington the ofﬁces of the International Broadcasting Bureau (IBB)
         and the Voice of America (VOA) that provide support have not been
         well-integrated in Washington nor have they communicated adequately
         with the ﬁeld.

     • 	 East Africa is attracting increased attention in Washington and its media
         market is an important focus of VOA English, Swahili, and Somali broad-
         casting. However, the BBG initiatives in the region are under-resourced to
         meet this interest.

     • 	 VOA operates in a highly competitive market in East Africa. Challenges
         to reaching the widest possible audience come from the aggressive competi-
         tion of other domestic and foreign broadcasters, the state of technology in
         the region, and limits on the resources available to IBB for transmitting and
         advertising of VOA products. BBG needs to:

         - assure that quality 24/7 FM transmissions in Kenya are re-established,
         - identify resources to enhance advertising,
         - continue the initiative to localize and enliven programming,
         - conduct audience surveys and focus group assessments for both its English
           and Swahili services.

     • 	 There is currently no local governmental opposition to, or obstruction of,
         BBG programming, but there has been politically motivated talk of restric-
         tions for which BBG should consider a planned response.

    The inspection took place in Washington, DC, between December 7, 2006, and
January 19, 2007, and in Nairobi, Kenya, between February 12 and March 9, 2007.
Follow-up discussions with VOA Washington were held between March 25 and
June 18, 2007. The inspection was carried out in conjunction with the inspection of
Embassy Kenya led by Ambassador Vincent M. Battle. Deputy Team Leader Frank
Ward conducted the inspection of BBG operations in Kenya.



OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008   1 .


                       SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED





2 .    OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


      SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                                          CONTEXT


    The BBG has several distinct operations in Kenya. The VOA Nairobi-based
East Africa bureau ofﬁce supports both the English worldwide service and various
Swahili and other stringers. The International Broadcasting Bureau (IBB) has its
Ofﬁce of Marketing and Program Placement (OMPP) satellite ofﬁce in Nairobi that
works to promote VOA products and develop afﬁliate stations in Kenya, Tanzania,
and Somalia who will rebroadcast VOA programs. IBB’s Ofﬁce of Engineering and
Technical Services (OETS) transmits from a facility 30 kilometers outside of Nai-
robi.

     Kenya is a dynamic country with many natural and human resources. It is a
regional hub for many commercial, political, and developmental initiatives. It has
a democratic government and a lively civil society. It is also a developing country
wracked with problems of crime, corruption, disease, and poverty. According to
both UN and U.S. Embassy statistics, 50 percent of Kenya’s population lives below
the poverty line, and per capita income is less than $2.00 per day. English is the
common language of affairs in the country and the language of instruction in the
schools. Unfortunately, the educational system is in decline, and English language
skills are declining with it.

      Freedom of expression is on the rise. There are many print publications, but
most have the resources for only limited distribution. Even the two major national
dailies are hard to ﬁnd outside of urban areas. The quality of print journalism is un-
even. There are private and public television channels, but entertainment and com-
mercial interests dominate programming. Radio remains what most Kenyans can
afford as a source of information. People listen to an expanding selection of FM
stations in the urban areas, but in rural areas shortwave is still used where the FM
footprint does not reach.

    Few Kenyans have been able to afford home computers, but at work, in the
schools, and at cafes, Internet presence is beginning to grow. Cell phones are ev-
erywhere and “texting” is spreading rapidly. Kenyan broadcasters speak of digital
broadcasting in the near future. The leap to cell phones and Internet broadcasts
may be happening already in neighboring Somalia, where the absence of any central
control or earlier generation infrastructure and funding from the Somali diaspora are
generating a fast-changing and creative media landscape.


OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008   3 .


                       SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



          Kenya and Kenyans’ attitude towards the United States is important to the U.S.
      government as Kenya is the hub of a wide spectrum of U.S. interests in the region.
      The long-standing bilateral relationship with Kenya includes economic development,
      trade, cultural and educational exchange, and the development of democratic institu-
      tions. Kenya serves as a regional hub or lead partner in antiterrorism, antinarcotics,
      anti-HIV/AIDS, and pro-civil society initiatives. The large American medical pres-
      ence, including the Centers for Disease Control and Prevention, Walter Reed Medi-
      cal Research Unit, and the President’s Emergency Program for AIDS Relief focuses
      on the control of diseases such as malaria, Rift Valley fever, and HIV/AIDS. The
      U.S. mission in Kenya hosts teams that are addressing U.S. policies and humanitarian
      concerns in Sudan and Somalia. VOA broadcasts help to inform the people of the
      region about these initiatives and about the American society that promotes them.




4 .                  OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





     VOICE OF AMERICA, EAST AFRICA BUREAU




HUMAN RESOURCES
    The East Africa bureau chief for VOA has been in and out of Kenya since 1998.
In recent years she has covered combat situations in Afghanistan, Iraq, and Somalia.
She became the Nairobi bureau chief in June, 2002. Since 2003, there has been an
agreement between the Department of State and the BBG that VOA correspon-
dents, even those based in-country, do not come under chief of mission authority.
Thus, the bureau chief can cover events in Somalia, and be exempt from ordered
departure orders for U.S. government employees.

     One of the two local positions is for a senior information specialist with duties
as both news assistant to the correspondent and cashier for the ofﬁce. The other is
strictly administrative (information assistant/ofﬁce manager). The senior local em-
ployee (LE Staff, Grade 9) recently retired, and the junior ofﬁce manager (LE Staff,
Grade 8), who began with the ofﬁce as a contractor in 1997, has taken on many
of the duties of both positions. He is also the most frequent driver of the bureau
vehicle and keeps a meticulous vehicle log. In spite of the vacancy in the ofﬁce, the
high energy of the bureau chief and the remaining locally employed staff, give the
appearance that current stafﬁng is adequate for the time being. However, the ofﬁce
stafﬁng lacks depth with that vacancy.

    An American resident in Kenya had been on contract as the principal stringer of
the bureau since 2003. She came to the bureau ofﬁce almost every day, had access to
the ofﬁce, and during the absence of the bureau chief carried the bulk of the bureau
reporting. Her contract required her to produce roughly 20 reports per month as
directed by the bureau correspondent, VOA assignments editors in Washington, and
on occasion, assignment editors in Hong Kong. Since the OIG team departed Nai-
robi, this regular stringer left the bureau, leaving the ofﬁce with another problematic
vacancy. The number of stringers who pass through the Nairobi ofﬁce varies. They
are hard to classify as “Nairobi’s” as they may do their freelance work for a number
of different news services and move frequently across borders. Stringers for the
English, Swahili, and other language services may use the facilities at different times
but do not have the same access as the employees noted above.


OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008    5 .


                       SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



      FACILITIES AND SECURITY
          The bureau ofﬁce is on the second ﬂoor of the Chester House ofﬁce building
      in downtown Nairobi. Chester House had been, until a few years ago, the build-
      ing where all the international media bureaus had their ofﬁces. It became rundown,
      however, and most commercial bureaus moved to a newer building a few blocks
      away. VOA could not afford the move. Fortunately new owners have upgraded
      the structure. Instead of news bureaus, the neighbors are now mostly studios of
      prominent artists. The building has security guards at the entrance to the wing in
      which VOA is located, and to the hallway. With the external improvements made by
      the new owners, the internal security upgrades made by the bureau chief with VOA
      Central News Division (VOA/CC) support, and the apparent absence of a need to
      be colocated with other bureaus, the facilities seem quite adequate.

          The ofﬁce consists of three large rooms which can be used as workspace for
      the correspondent, for two local employees, and for stringers. There are two small
      rooms set up as studios. They were undergoing an upgrade at the time of the in-
      spection. One of them holds the ofﬁce safe. There is a room/closet off the corre-
      spondent’s ofﬁce where supplies and equipment waiting for disposal are kept.

          The bureau chief, with support and funding from VOA/CC, put in a new, more
      secure, door to the ofﬁce, Mylar-sealed double-glazed windows, air conditioning, and
      external window covers. She removed the external Voice of America sign that could
      have attracted attention. The new door is accessible only with a special electronic
      key card. The staff feels safe from forced entry through the door or random objects
      thrown through the windows.



      FINANCIAL MANAGEMENT:
          VOA/CC Washington supervises the bureau, but it gets its ﬁnancial support
      through the Paris ofﬁce and for news, especially for the English service, the chain of
      command runs through the VOA London ofﬁce. The bureau chief is attentive to
      management issues and is ably supported by the LE staff information assistant/of-
      ﬁce manager. The bureau’s estimated FY-07 operating budget is $176,557. The LE
      staff salaries are budgeted at approximately $52,000, and the balance is for general
      operating expenses. This budget is not static and has risen and fallen with changes in
      staff and other expenses. It appeared to the OIG team to be adequate for all bureau
      operations.



6 .                  OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




    The most recent informal, but very thorough, audit was carried out by the
certifying budget analyst from the VOA Finance Ofﬁce, Paris in August 2005 and
reported to Washington. This included a cash count, review of the inventory, vehicle
records, and equipment disposal log, attention to position description and computer
aided job evaluation issues, and a rigorous check of ofﬁce accountability. VOA ofﬁc-
es in Washington and Paris have shared this report with the OIG team. These audits
have been made every other year since 1995 and provide a salutary continuity and
encouragement for the ofﬁce to continue its observance of management controls.

   Under the supervision of the bureau chief, the LE staff member manages the
ofﬁce with great care. The OIG team carried out a cash count (b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2) . All expenditures and cash allotments were recorded. The OIG team
looked through several months of carefully kept receipts and matching notations in
the accounts book. Each time cash replenishment is made, the LE staff receives a
check from Paris via Federal Express. He takes it to the Commercial Bank of Africa
branch ofﬁce at the embassy, deposits it in the ofﬁce account there, (b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)      The VOA/CC
in Washington reported no administrative or budgetary problems with the Nairobi
bureau and that its allotment is adequate.

    The OIG team noted obsolete and defective equipment in the ofﬁce. The bu-
reau understands that in order to remove this equipment from the inventory, it must
be packaged and shipped via commercial shipper to VOA headquarters. This is a
costly operation. VOA/CC and the bureau should be able to reduce expenditures by
availing themselves of a paper or electronic means of substantiating the disposal or
destruction of this equipment.

    Recommendation 1: Voice of America Central News Division, in coordina-
    tion with the Voice of America Nairobi bureau, should identify a procedure for
    the disposal or destruction of obsolete or defective equipment without incur-
    ring the cost of commercial shipping to the United States. (Action: VOA).


OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008               7 .


                       SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED





8 .    OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


      SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





  AFFILIATE ACTIVITY: OFFICE OF MARKETING
          AND PROGRAM PLACEMENT


    The OMPP ofﬁce in Johannesburg, South Africa, administered by its regional
marketing ofﬁcer, oversees IBB marketing and afﬁliation in Kenya. OMPP has a
contract regional marketing representative based in Nairobi, who has responsibility
for Kenya, Tanzania, and Somalia.

    The regional marketing representative has been on contract for just over one
year, works out of his home ofﬁce and car, and is an energetic promoter of BBG
products. He is learning to deal with the challenges of representing a government-
run bureaucracy in a competitive private sector environment. Given the number of
approvals that each step of the afﬁliation process takes, he has suggested that instead
of the three-step process that involves a “deal sheet,” a memorandum of under-
standing, and then a contract, that the middle step be eliminated in order to go to
contract before a station loses interest or is won by another international broadcaster.
The OMPP Afﬁliate Proposal form still in use requires not only clearance from the
regional marketing ofﬁcer in the ﬁeld, but also from the two most senior ofﬁcers of
OMPP in Washington, the Executive Director of IBB, and a representative of the
BBG itself. At the discretion of the regional marketing ofﬁcer, the process can be
simpliﬁed, and the senior Washington signatures no longer required, but multiple
clearances still slow the process.



    Recommendation 2: The International Broadcasting Bureau should assess
    the impact of the current afﬁliation process on the effectiveness of its ﬁeld
    representatives and, in consultation with the ofﬁce of the General Counsel and
    the Contract Ofﬁce, determine whether a simpliﬁed process such as a permis-
    sion to rebroadcast agreement can be implemented. (Action: IBB)


       Together the regional marketing ofﬁcer and regional marketing representative
have made successful visits in the region. A September 2006 visit to Tanzania led to
new afﬁliations in Zanzibar where American programming has been notably difﬁcult
to establish.




OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008     9 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




           OMPP coordinates with the U.S. Embassy in Nairobi on issues relating to the
       24/7 VOA FM frequency (107.5) which has been on the air for ﬁve years. OMPP af-
       ﬁliates in Kenya include radio stations owned by Royal Media Services which broad-
       cast VOA Swahili in eight cities on its Citizen FM network; the chain’s Hot FM in
       Nairobi carries VOA English-to-Africa programming. The national service, Kenya
       Broadcasting Corporation’s Channel One, carries the VOA TV-to-Africa program,
       “Straight Talk Africa.”

            Somalia is of increasing interest to Washington. On February 13, 2007, after
       a 13-year hiatus, VOA Somali transmission began from Djibouti. Kenya’s Frontier
       FM now carries VOA Somali programs and news clips. OMPP has agreements with
       stations in Somalia, Horn Afrik and Radio Daljir, to program VOA products such as
       Special English, Straight Talk Africa, and Africa Journal, in addition to news offer-
       ings. STV in Nairobi carries VOA’s TV-to-Africa in the English-to-Africa service
       and World Wide English acquired television programming.

           In the coastal area of Kenya with its large Muslim population, Baraka FM is try-
       ing to reach a Muslim audience, and OMPP is providing it with VOA news products
       in Swahili and English. Recent OMPP negotiations with Capital FM, a multi-market,
       English-language network, and Radio Lake Victoria FM have resulted in the installa-
       tion of equipment with the new afﬁliates.




10 .                  OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                       TRANSMISSION FACILITIES


       The Ofﬁce of Engineering and Technical Services (OETS) is responsible for
transmission facilities in Africa. BBG’s two kilowatt FM transmitter in the Limuru
Hills, 30 kilometers from Nairobi, provides VOA broadcasts in English to local audi-
ences 24/7. Unfortunately, the transmission has been interrupted on several occa-
sions in recent years, which has illustrated further communications problems within
the BBG community and discouraged potential audience members.

     When the FM 107.5 frequency was won for VOA 24/7 broadcasting in Kenya,
BBG planned a downtown transmitter tower with line of sight to all parts of the city
and suburbs. However, the government of Kenya dictated that all nongovernment
of Kenya broadcasters relocate outside of Nairobi. BBG, and other international
broadcasters, found the Limuru hills outside of town to be a good venue from which
to transmit. BBG negotiated a hosting agreement with Nation Radio/TV which had
a transmission facility in that area. BBG broadcasts began in June 2001. Immedi-
ately, BBG received reports of poor reception in parts of Nairobi. This was due to
frequency licensing limitations on the strength of the signal and the antenna system
that they were directed to use. The BBG antenna system was struck by lightning in
May 2002. The resulting damage impacted broadcasting and required replacement
antenna components.

    BBG contracted with a well-regarded local contractor, B.A.T.L., which sold and
maintained Crown equipment, for operation and maintenance. To expedite support,
BBG decided to procure and install a Crown transmitter instead of Harris equipment
which is standard for BBG. When B.A.T.L. went out of business, problems devel-
oped with the Crown equipment. The two kilowatt transmitter had to be shut down.
OETS had to rely on a leased one kilowatt back-up. This reduction of power further
aggravated an already poor reception in parts of central Nairobi and was the primary
cause of listener complaints at the time that the inspection team was in Nairobi. The
two kilowatt transmitter has been repaired since the OIG team left Nairobi, is now
back in service, but is still not at full power.




OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008   11 .


                       SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



          BBG is in the process of relocating its broadcast transmission facility to a new
       tower/facility built by Broadcast Solutions International at Limuru. BBG will install
       a Harris two kilowatt transmitter and a new antenna system that should substantially
       improve the broadcast signal into Nairobi if buildings and other terrain features
       do not interfere in a given neighborhood. Personnel from the BBG Botswana and
       Morocco transmitting stations will oversee the installation, with operations which
       were due to begin during the summer of 2007. With delays and the closing of the
       Morocco station under discussion at the time of this report, it is important that BBG
       complete this transmission upgrade.



          Recommendation 3: The Bureau of Broadcasting Governors should follow
          through on the plan, already in process, to establish a new transmission capa-
          bility that will improve the signal strength of Voice of America broadcasts to
          downtown Nairobi and keep Broadcasting Board of Governors elements and
          Embassy Nairobi informed of progress. (Action: BBG)


            The existing temporary transmitter that is well outside of Nairobi belongs to a
       private network and various permissions are needed to access the facility. Therefore,
       the OIG team did not make a physical inspection of the transmitter

             Shortwave listening audiences in Kenya should also be able to hear VOA
       broadcasts in the following languages from the BBG transmitting sites indicated
       below:

              -   English, French, and Swahili from Moepeng Hill, Botswana.
              -   Amharic, English, French, and Swahili from Sao Tome.
              -   Afan Oromo, English, and French from Briech, Morocco.
              -   English from Udorn, Thailand.
              -   Tigrigna from Iranawila, Sri Lanka.




12 .                   OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


                     SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                         EMBASSY COOPERATION


    Although VOA policy is to remain independent of embassies abroad, the Nai-
robi bureau chief is very pleased with the level of cooperation from the embassy
when cooperation is needed. The BBG entities rely little on few embassy services.
In Nairobi, the BBG pays for International Cooperative Administrative Support Ser-
vices for personnel (the two Kenyan VOA bureau ofﬁce staff positions are paid as
LE staff through the embassy human resources ofﬁce), mail and messenger services,
security, and vouchering. The correspondent has easy access and exchanges with
the embassy information ofﬁcer and public affairs ofﬁcer. The bureau is invited to
embassy press events. The correspondent is very positive about the Ambassador’s
efforts to reach out to the media. She gets periodic alerts of security issues from
the regional security ofﬁce, and in the course of the deadly crime wave sweeping the
country, she attends the Ambassador’s town hall meetings for the nonofﬁcial Ameri-
can community. The OMPP regional marketing representative comes to the public
affairs ofﬁce to receive and send promotional materials and equipment. OMPP
reports that the embassy has been supportive in helping them arrange high-level
meetings for visiting BBG marketing ofﬁcials.

    There was an incident some months ago when a VOA stringer, in the absence
of the bureau chief, “crashed” an off-the-record evening event with the Ambassador
and attempted to violate the no recording policy. This gaffe was quickly resolved,
and relations between the bureau and the embassy remain excellent.

    In 2006, the embassy invited VOA English-to-Africa editor and TV personality
Shaka Ssali to be a keynote speaker at a regional media symposium on the role of the
media in a multi-party democracy in East Africa. The symposium brought together
many journalists from Kenya, Tanzania, and Uganda with observers from Madagas-
car and Ethiopia. The symposium was ﬁnanced by the embassy and the U.S. Interna-
tional University in Kenya and provided a unique opportunity to speak on the values
of freedom of the press in an emerging democratic culture in Africa.




OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008   13 .


                       SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





14 .    OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


       SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                                PROGRAM IMPACT


    BBG programs in East Africa face competition from many directions. The
Kenyan audience has a growing number of radio and television options: public and
private, domestic and international. BBG directs what resources it can to under-
standing this audience in commissioned research like the exhaustive May 2005 review
of the changing Kenyan media scene by Intermedia cited below. OETS works to
assure quality transmission to the region. In spite of this effort, the sense in the
Kenya-based community of potential listeners, afﬁliates, and advocates of American
broadcasting was that more analysis needed to be done, a stronger signal needed to
be produced for BBG products, and changes in programming needed to be made to
have a real impact in Kenya.



THE NEED TO ADVERTISE
     In the course of the inspection, the OIG team asked a small sample of Kenyan
employees of BBG entities, the embassy, and nongovernmental organizations about
their perceptions of, and experience with, BBG programming. In most of these
discussions, the British Broadcasting Corporation (BBC) is immediately identiﬁed as
the major competitor for VOA English or Swahili. The BBC has a well-established
position in Kenyan media, invests in a lively marketing campaign, and keeps revising
its programming to provide what the local audience wants.

     Even the British Swahili and English broadcasters must work hard to keep their
lead among foreign broadcasters. Al Jazeera just got a major placement on Nation
TV. China Radio International has been increasing its audience, and has a time slot
with the Kenyan Broadcasting Corporation. The OIG team visited religious radio
station operators on the Muslim coast that were promoting their stations aggres-
sively. Islamist media interests from the Gulf and South Asia are said to be offering
programs and ﬁnancial support. In addition to the international broadcasters, there
are said to be over 100 Swahili stations to choose from. Kenyans have switched to
FM radio and like to browse.




OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008   15 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           The most recent audience survey commissioned by IBB and executed by Inter-
       media (International Broadcasting in Kenya; Audience Analysis and Market Proﬁle,
       April-May 2005, National Survey Report 291/05) shows that of the Kenyan adult
       radio audiences listening to programs in any language, 8.8 percent listen to VOA
       English, against the BBC’s 30.5 percent. In Swahili, VOA is heard by 6.9 percent
       against the BBC’s 25.5 percent. While the BBC is in the lead among the international
       broadcasters, its overall radio market share has declined over the years as the options
       in the Kenyan media market have blossomed.

           All stations, and especially the BBC, rent billboards in and around major cities,
       print program schedules in newspapers, and pay for attractive advertisements in ma-
       jor newspapers directing listeners to their frequencies. The BBC has a program that
       takes on and trains interns from the local media. This initiative gives the British local
       youth input and develops a local network. IBB afﬁliates report that aggressive BBC
       marketers pay numerous visits to their afﬁliates and recently had tried to get one af-
       ﬁliate to bump a VOA placement with their latest Swahili program.

           BBG entities are not funded to be as aggressive in their advertising or promo-
       tion. They rely on their afﬁliates to advertise. When frequencies change or when
       signal strength varies, which happens in both short wave and FM bands, if those
       changes are not advertised widely, VOA loses listeners who have not heard about the
       changes.



          Recommendation 4: The Broadcasting Board of Governors should decide to
          either increase promotional funds for the Voice of America Kenyan market or
          accept a low market share and plan to address limited communication with the
          Kenyan audience. (Action: BBG)




       THE NEED TO LOCALIZE
           Listeners in the media community and potential afﬁliates comment that the pace
       of VOA programming has been slow, the language stilted, and the stories too long.
       The most frequent criticism that the OIG team heard of VOA programming was
       that it does not have an East African focus. VOA Swahili wins praise as dependable,
       but gets criticism for not having changed its format in years. Informants praise the
       lighter, livelier style that the BBC Swahili has made its trademark. The BBC has cap-
       tured much of the market by localizing its coverage. It has been particularly good at


16 .                   OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




sports reporting addressed to a Kenyan audience. The OIG team heard the example
that when the African Union met in Nairobi, the BBC reports all began with that
event. VOA led with news from Iraq. Most Kenyans are more interested in Kenya
than Iraq. Afﬁliate station owners have complained that this discourages sponsors
from wanting their commercials programmed alongside a VOA timeslot. It could be
that informants were making an unfair comparison between worldwide VOA inter-
national news, not the Africa services, and the British news programming directed
just at East Africa. Unfortunately, the story was retold by several Kenyans who
believed that it was common to all VOA programming to ignore local interests.

       VOA leadership has often heard the critiques about the slow pace, dated lan-
guage, long presentations, tedious content, and failure to localize. Many journalists
in VOA feel that their mandate is to present news and useful information, not to
entertain. There have, however, been cases where VOA did localize its news cover-
age and did increase the proportion of music and sports and saw its ratings improve
markedly. In Angola, while there was U.S. Agency for International Development
funding, the service did turn to a livelier format and got larger audiences. A newer,
livelier format is working in French to Central Africa and in the Zimbabwe project
where VOA has actually passed the BBC in the ratings. The BBG 2002-2007 Strate-
gic Plan, Marrying the Mission to the Market, has recognized this challenge. It called
for its broadcasters to “update outmoded formats and programs.” The Strategic
Plan includes among its goals the injunction to “Go local in Content and Presence.”

     VOA’s English to Africa has been changing its program format in the last year.
There has been close cooperation with VOA/CC on this planning. They were able
to tie their changes to what research had indicated. They are switching to shorter
programs of local interest and more sports and music. Recent research in Ghana
and Uganda indicate increased listenership subsequent to these changes.

    On March 8, 2007, at the same time that the OIG team in Nairobi was hearing
from listeners that there was a greater need for localized programming, the English
to Africa Program Review was being held in Washington. Review participants from
many ofﬁces in IBB and VOA noted that the service’s broadcasts were increasingly
“targeted to African audiences” and has “increased its sports and music origina-
tions.” Thus the English to Africa programs had already begun to address the con-
cerns that the OIG team was hearing about. A shift in the news programming has
permitted the service to “devote most or all of its Headline Newscasts to stories of
direct interest to African audiences,”and “now African stories nearly always lead the
newscasts.”




OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008   17 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



            On the negative side, research reports presented at the March 8 review drew on
       commissioned Intermedia surveys and noted the program changes begun in 2006.
       At the same time it reported “little evidence that listeners are aware of any change in
       format or content.” When researchers drew the attention of their interlocutors to
       newer programming like African Beat and Inquiry, the response was positive. “Audi-
       ence size and characteristics are as likely driven by distribution, access and awareness
       of VOA’s existence as by content.” Both Kenyan interlocutors and the IBB-Interme-
       dia research in neighboring Uganda concluded that many potential listeners, especial-
       ly BBC listeners, were “unaware of VOA or unaware of how to access it.” This was
       taking place during the period when transmission of the 24/7 FM signal was weak-
       ened because of transmitter problems cited above. If potential audience members
       are not informed about improved VOA programming and reception through adver-
       tising, they will not tune in to listen.



          Recommendation 5: The International Broadcasting Bureau should support
          language service efforts to make programming for East Africa more attractive
          to local audiences, and thereby comply with the Broadcasting Board of Gov-
          ernors Strategic Plan. The International Broadcasting Bureau should require
          more frequent updates on such factors as funding for advertising, audience sur-
          veys, and reception problems and involve Voice of America and International
          Broadcasting Bureau ﬁeld ofﬁces in the discussion. (Action: IBB)


            As part of its FY 2008 budget, the BBG has proposed cuts in VOA’s English
       language service, part of the Language Programming Division, and worldwide Eng-
       lish features and the music service, which are part of the VOA Central Programming
       Division. This comes as English to Africa is looking to the redesigned 24/7 FM op-
       erations as its future. English to Africa produces targeted African programming but
       not enough for 24/7 programming. Seventy percent of the round-the-clock content
       relies on the products of the same English language and music services which are
       proposed to be cut.



          Recommendation 6: Voice of America’s Central Programming and Language
          Programming divisions should develop a plan to address the contradiction
          inherent in advancing the initiative of establishing a dynamic 24/7 English to
          Africa program while eliminating the English language services which provide
          the bulk of its content. (Action: VOA)



18 .                   OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



THE NEED FOR MORE ANALYSIS
    IBB’s ofﬁces of research and performance review, directly and through contrac-
tors, do highly professional studies of VOA programs and of audience reach around
the world. The OIG inspection of the BBG Performance Review unit concluded,
in 2006, that much of that ofﬁce’s research is not used for decisionmaking and that
the reports on listenership, the results of focus groups, or monitoring transmissions
often do not get to all interested parties who could use them in making informed
decisions. Discussions in Kenya, in BBG program reviews, and with language
service ofﬁces in Washington conﬁrmed these conclusions. The research, engineer-
ing, broadcasting, editing, and marketing staffs in Washington come together for the
annual performance reviews in Washington for each language service. The results of
these reviews are not shared with any consistency with the VOA, BBG, or embassy
staff in the ﬁeld who could beneﬁt from the Washington discussion. There is more
frequent exchange between OMPP and OETS as they work to assure that the audi-
ence receives a quality signal.

     IBB also convokes focus groups and unique seven-person panels that evalu-
ate the presentation and the content of language service programs. To meet the
needs of the VOA Swahili service, the focus of the annual research effort alternates
between Kenya and Tanzania – the two main target countries. The latest surveys
focused on Kenya in 2005 and Tanzania in 2006. A new study was scheduled to start
in Kenya in late May 2007. Advertising initiatives have been awaiting the return of
the capacity to reach the intended audiences with the re-establishment of the two
kilowatt transmitter in Limuru.

     In the drive to develop a robust FM 24/7 English to Africa presence, VOA Swa-
hili has faced new challenges. The service has a tight budget and no TV or Internet
presence, and it has been bumped from Nairobi’s 107.5 FM frequency to make room
for the English service. Now FM afﬁliates and shortwave are the only vehicles for
reaching their audience. The Swahili service only broadcasts one hour of original
programming each day. In that time it must produce content that will attract both
the sophisticated audience of media-rich Nairobi and the larger rural population.
Swahili also has a larger audience in Tanzania than in Kenya. Nairobi has only a frac-
tion of the English and Swahili audience in the region, but it is an important fraction.
The Swahili service has heard rumors of weak signals but has not received regular
reports on that condition. They are looking forward to a new listenership survey
scheduled for the coming year.




OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008     19 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




               Given the changes that are being made in mid-2007 in programming, market-
       ing, and transmission in East Africa, there is a need to coordinate these efforts and
       assess their impact as they relate to both the English and Swahili services. When the
       current transmission problems have been resolved, a wider audience will be able to
       hear and render opinions on VOA broadcasting in Kenya. At that point, the OMPP
       should initiate a broader marketing campaign, and the IBB Ofﬁce of Performance
       Review should execute audience surveys and focus group analysis of the new format
       of English to Africa and the programming by the Swahili service.



          Recommendation 7: The International Broadcasting Bureau should initiate
          an advertising campaign for both the English and Swahili services and follow
          up with assessments of the awareness of Voice of America programming, au-
          dience size and makeup, attractiveness of the product, and quality of the signal.
          (Action: IBB)




       THE NEED TO COMMUNICATE TRANSMISSION INFORMATION
           Listeners in Nairobi reported to the OIG team that VOA’s 24/7 station
       (107.5FM) was hard to ﬁnd on the dial, that the signal was weak, and that it some-
       times go off the air for as long as 30 minutes at a time. One inspector listened on ra-
       dios in different ofﬁces and hotel rooms and, along with the regional marketing rep-
       resentative, listened to the station in different locations from a car radio. Of all the
       FM stations in the area, 107.5 FM was the weakest. As noted earlier in this report,
       OETS had been temporarily forced to use a weaker transmitter. OETS staff who
       maintain the transmission equipment respond to outage or exception reports, but
       the results are not widely communicated, and engineers in regional ﬁeld ofﬁces only
       learn through an indirect route when the signal is down or weak. OETS was work-
       ing to address this condition, but at the time of the inspection neither VOA Nairobi,
       the marketing representative, nor the embassy had seen a report on these transmis-
       sion problems in Kenya. Thus, there was no public announcement when the quality
       of the reception changed, nor an announcement of planned improvements. The
       OETS ofﬁce that monitors transmission has a very sophisticated computer-based
       shortwave and medium wave (AM) system that includes East Africa. But there is
       very little monitoring of FM. Most FM VOA broadcasting is done via the afﬁliates
       who do their own monitoring and are supposed to report issues to OMPP.




20 .                   OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



    It would be impractical to assume that BBG could staff round the clock moni-
toring of all its services, particularly FM, with its many afﬁliates. In many cases the
same people who do transmitter maintenance are tasked with making periodic spot
checks of reception, but that does not amount to 24/7 monitoring.

     In different countries, BBG stringers or embassy LE staff may be asked to do
random monitoring of FM. If a stringer, a correspondent at the bureau, an embassy
ofﬁcial, or the marketing representative becomes aware of a transmission problem,
there is an established procedure to inform responsible parties to take action. They
should send messages through the OMPP marketing representative to the appropri-
ate language service which then contacts the OETS Network Control Center. The
center in turn informs the appropriate engineering team. In Nairobi, the LE staff
ofﬁce manager contacted the OMPP regional marketing representative or the region-
al marketing ofﬁcer in Johannesburg each time he got a report of a bad signal, but
few embassy staffers or other VOA bureau employees with whom the OIG team has
interacted were aware of this procedure.

    OETS staff suggested that OMPP take on the responsibility for notifying au-
diences and BBG elements of transmission problems as OMPP’s role is to attract
afﬁliates and audiences. But OMPP staff responded that this added duty could be a
burden given the limited staff allotted to it by IBB. Alerting the embassies and local
marketing representatives would ensure that the people most concerned in seeing
BBG programming succeed in Kenya would have the information they need to pro-
mote the product.



    Recommendation 8: The Ofﬁce of Marketing and Program Placement, in
    consultation with the International Broadcasting Bureau’s Engineering Di-
    rectorate, and the Voice of America’s Central News Division and Language
    Programming Division, should establish a procedure for advising the Voice of
    America Correspondent, the Embassy Public Affairs Section, and the Market-
    ing Representative in Nairobi when changes in frequency or quality take place.
    (Action: IBB)


    When the new FM transmitter is installed in Nairobi, the monitoring of the 24/7
frequency should improve. A remotely operated system is to be installed which will
monitor the signal and automatically supply on-air status and audio samples to Engi-
neering Operations through the transmitting station in Morocco.




OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008    21 .


                       SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



            With stronger signals and a new program format, the 24/7 operation in Africa
       has great potential. The Africa language service chiefs agreed in 2006 that 24/7 FM
       programming was a success and should be supported. The Accra operation raised
       listenership from two percent to 12 percent of the market. OMPP was very active,
       attracting attention to the enhanced offerings. It is often not clear to personnel
       executing the English to Africa 24/7 programs how strong the commitment is of
       IBB and VOA leadership to sustain and expand those programs.

           VOA has six stations in Africa broadcasting its products 24/7. Its main inter-
       national rival, the BBC, has over 60 such stations and is continuing to expand. Part
       of the British success in the region is traced to the fact that the BBC has equivalents
       of OMPP and OETS that are focused on each individual region and work with the
       regional services. The British initiative also has a budget assured for a three-year
       period. With a limited budget and staff vacancies, IBB’s OMPP faces great challeng-
       es as a single marketing ofﬁce serving a worldwide audience. Tying the marketing
       effort more closely to the regional audiences could focus more regional resources on
       the effort.

           The Booz, Allen, Hamilton study commissioned by the BBG in 2005-2006
       concluded that marketing would be more effective if it was integrated better into the
       (regional) “business units” rather than centrally.1 There is no evidence that BBG has
       responded to that advice. OMPP does have regional marketing ofﬁces, but they have
       operated independently of the program production in the region.



           Recommendation 9: The Voice of America, in coordination with the Broad-
           casting Board of Governors should clarify support for the 24/7 operation by
           developing and implementing a strategy for maintaining and ﬁnding resources
           for this commitment and strengthening the connections among the marketing,
           transmission, and programming elements of East African operations. (Action:
           VOA, in coordination with BBG)




       1
        Booz, Allen, Hamilton; Final Report of the Voice of America and the International Broadcast-
       ing Bureau, Broadcasting Board of Governors, Vol. I: Washington DC, July, 2006. pp. 97-103.



22 .                    OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


                     SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



THE NEED TO SHARE INFORMATION
    The perception of Kenyan staff at the embassy and in BBG ofﬁces is that Wash-
ington is responsible for research and monitoring, but does not communicate its
ﬁndings. The regional marketing ofﬁcer in Johannesburg has seen the reports from
Washington, but the regional marketing representative in Nairobi has not. In fact,
to monitor the listening and viewing audiences, the regional marketing representa-
tive relies on commercial surveys by East African media monitors “Steadman” and
“Consumer Insight.”

    In Washington meetings before and after the inspection in Nairobi, the OIG
team conﬁrmed that highly professional research reports such as the IBB Ofﬁce of
Performance Review’s “Kenya Audience Analysis and Market Proﬁle” of May 2005,
the March 2006 performance review of English to Africa, and the results of trans-
mission assessments can all be found on the IBB Intranet site. However, the reports
are directed mostly to the ofﬁces that commissioned them and not announced to a
wider government-funded audience outside of Washington.

    BBG and mission elements in Kenya include a number of Americans and Ke-
nyans with a sincere interest in seeing the United States broadcast the highest quality
and most effective message to the peoples of the region. Within this community
of professionals a sharing of reports and analysis done with U.S. government funds
would help each to a more complete grasp of the prospects for public diplomacy in
the region. Currently such sharing is not apparent but should be required.



    Recommendation 10: The International Broadcasting Bureau should create
    and implement a structure through which Voice of America’s Central News
    Division and Language Programming Division (English to Africa and the
    Swahili Service) and the International Broadcasting Bureau’s Ofﬁce of Perfor-
    mance Review, Ofﬁce of Marketing and Program Placement, and the Ofﬁce
    of Engineering and Technical Services share their reports of market analysis,
    placement efforts, and transmission quality among the ﬁeld ofﬁces and Ameri-
    can and senior local staff of the Ofﬁce of Marketing and Program Placement,
    Voice of America bureaus, and embassy public affairs sections who are engaged
    in advancing the promotion of Broadcasting Board of Governors products in
    the region. (Action: IBB).




OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008    23 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



            Thus far, Kenyan authorities have not obstructed foreign broadcasting. Recently,
       however, a Kenyan assistant information minister said that ofﬁcials were considering
       following the lead of other countries in requiring that any foreign entity broadcast-
       ing within Kenyan borders do so from licensed studios inside the country. Some
       Kenyan legislators have also demanded that if the BBC or other foreign broadcasters
       like VOA want to broadcast in their country, that the Kenyan Broadcasting Corpora-
       tion should be allowed to broadcast in those countries. Both OMPP and the U.S.
       Embassy are keeping a close watch on these developments since the Kenyan Minis-
       try of Information publicly suggested canceling broadcast licenses for foreign broad-
       casters whose countries do not allow a reciprocal arrangement, citing speciﬁcally the
       BBC, VOA, and China Radio International.

           The OIG team informally recommended that OMPP and Embassy Nairobi dis-
       cuss how to address any effort to change licensing practices by the Kenyan govern-
       ment and prepare a plan of action should changes be made.




24 .                  OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                    FORMAL RECOMMENDATIONS


Recommendation 1: Voice of America Central News Division, in coordination
  with the Voice of America Nairobi bureau, should identify a procedure for the
  disposal or destruction of obsolete or defective equipment without incurring the
  cost of commercial shipping to the United States. (Action: VOA).

Recommendation 2: The International Broadcasting Bureau should assess the im-
  pact of the current afﬁliation process on the effectiveness of its ﬁeld representa-
  tives and, in consultation with the ofﬁce of the General Counsel and the Contract
  Ofﬁce, determine whether a simpliﬁed process such as a permission to rebroad-
  cast agreement can be implemented. (Action: IBB)

Recommendation 3: The Bureau of Broadcasting Governors should follow
  through on the plan, already in process, to establish a new transmission capability
  that will improve the signal strength of Voice of America broadcasts to down-
  town Nairobi and keep Broadcasting Board of Governors elements and Embassy
  Nairobi informed of progress. (Action: BBG)

Recommendation 4: The Broadcasting Board of Governors should decide to either
  increase promotional funds for the Voice of America Kenyan market or accept
  a low market share and plan to address limited communication with the Kenyan
  audience. (Action: BBG)

Recommendation 5: The International Broadcasting Bureau should support lan-
  guage service efforts to make programming for East Africa more attractive to
  local audiences, and thereby comply with the Broadcasting Board of Governors
  Strategic Plan. The International Broadcasting Bureau should require more fre-
  quent updates on such factors as funding for advertising, audience surveys, and
  reception problems and involve Voice of America and International Broadcasting
  Bureau ﬁeld ofﬁces in the discussion. (Action: IBB)

Recommendation 6: Voice of America’s Central Programming and Language Pro-
  gramming divisions should develop a plan to address the contradiction inherent in
  advancing the initiative of establishing a dynamic 24/7 English to Africa program
  while eliminating the English language services which provide the bulk of its con-
  tent. (Action: VOA)




OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008   25 .


                       SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



       Recommendation 7: The International Broadcasting Bureau should initiate an
         advertising campaign for both the English and Swahili services and follow up
         with assessments of the awareness of Voice of America programming, audience
         size and makeup, attractiveness of the product, and quality of the signal. (Action:
         IBB)

       Recommendation 8: The Ofﬁce of Marketing and Program Placement, in consul-
         tation with the International Broadcasting Bureau’s Engineering Directorate, and
         the Voice of America’s Central News Division and Language Programming Divi-
         sion, should establish a procedure for advising the Voice of America Correspon-
         dent, the Embassy Public Affairs Section, and the Marketing Representative in
         Nairobi when changes in frequency or quality take place. (Action: IBB)

       Recommendation 9: The Voice of America, in coordination with the Broadcasting
         Board of Governors should clarify support for the 24/7 operation by developing
         and implementing a strategy for maintaining and ﬁnding resources for this com-
         mitment and strengthening the connections among the marketing, transmission,
         and programming elements of East African operations. (Action: VOA, in coordi-
         nation with BBG)

       Recommendation 10: The International Broadcasting Bureau should create and
         implement a structure through which Voice of America’s Central News Division
         and Language Programming Division (English to Africa and the Swahili Service)
         and the International Broadcasting Bureau’s Ofﬁce of Performance Review, Of-
         ﬁce of Marketing and Program Placement, and the Ofﬁce of Engineering and
         Technical Services share their reports of market analysis, placement efforts, and
         transmission quality among the ﬁeld ofﬁces and American and senior local staff
         of the Ofﬁce of Marketing and Program Placement, Voice of America bureaus,
         and embassy public affairs sections who are engaged in advancing the promotion
         of Broadcasting Board of Governors products in the region. (Action: IBB).




26 .                  OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                 INFORMAL RECOMMENDATIONS


Informal recommendations cover operational matters not requiring action by orga-
nizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s
progress in implementing the informal recommendations.

 (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


Informal Recommendation 1: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


While Kenyan authorities have not obstructed foreign broadcasting, there have
been proposals from senior ofﬁcials in the Kenyan government calling for limiting
international broadcasters’ operations within Kenya. The various interested parties
should have a plan to respond to these proposals and, if necessary, have a plan of
action to cope with any changes.

Informal Recommendation 2: Embassy Nairobi and the Ofﬁce of Marketing and
Program Placement should discuss how to address a possible change to licensing
practices by the Kenyan government and prepare a plan of action should changes be
made.




OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008                27 .


                       SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





28 .    OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


       SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                            PRINCIPAL OFFICIALS


                                                        Name                             Arrival Date


VOA East Africa Bureau Chief                            Alisha C. Ryu                         06/02


IBB Ofﬁce of Marketing and Program                      Paula Caffey                         10/02
   Placement, Regional Marketing Ofﬁcer
  Johannesburg, South Africa


IBB Marketing Representative in Kenya                   Wesley Maritim                       09/05




OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008                  29 .


                       SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





30 .    OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008


       SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                                  ABBREVIATIONS




BBC                                   British Broadcasting Corporation
BBG                                   Broadcasting Board of Governors
FM                                    Frequency Modulation Radio
IBB                                   International Broadcasting Bureau
ICASS                                 International Cooperative Administrative Support
                                      Services
LE                                    Locally employed
OETS                                  IBB’s Ofﬁce of Engineering and Technical
                                      Services
OIG                                   Ofﬁce of Inspector General
OMPP                                  Ofﬁce of Marketing and Program Placement
                                      (IBB)
VOA                                   Voice of America
VOA/CC                                Voice of America, Central News Division




OIG Report No. ISP-IB-08-07, Inspection of the BBGs’ Operations in Kenya, January 2008   31 .


                       SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

